              -<   -
                               nATIONAL SCIENCE FOUNDATION
                                 WASHINGTON, D.C. 20550




    O f f ice o f
Inspector General




MEMORANDUM
      DATE:            November 25, 1991,
REPLY TO
 ATTN OF:                                 Special Agent, Investigations Unit
 SUBJECT:              Closeout Memorandum   'Jr q   Od601&


         TO:           File

                                                         -
This office received allegations from

                              , who was



On                  , the Comptroller General issued its decision
denying the protest.in part and dismissing it inpart. The ruling
stated that there were no evidence to support s  -        claims.
Based on this ruling, the allegations are unfounded. This case is
closed without investigation or action.
